<html>
<title> - NOMINATIONS OF ERROLL G. SOUTHERS AND DANIEL I. GORDON</title>
<body><pre>[Senate Hearing 111-852]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-852
 
         NOMINATIONS OF ERROLL G. SOUTHERS AND DANIEL I. GORDON

=======================================================================



                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                                 of the

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

   NOMINATIONS OF ERROLL G. SOUTHERS TO BE ASSISTANT SECRETARY, U.S. 
      DEPARTMENT OF HOMELAND SECURITY, AND DANIEL I. GORDON TO BE 
ADMINISTRATOR FOR FEDERAL PROCUREMENT POLICY, OFFICE OF MANAGEMENT AND 
                                 BUDGET

                           NOVEMBER 10, 2009

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the


        Committee on Homeland Security and Governmental Affairs

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS




                  U.S. GOVERNMENT PRINTING OFFICE
56-143                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           JOHN McCAIN, Arizona
MARK L. PRYOR, Arkansas              GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
JON TESTER, Montana                  ROBERT F. BENNETT, Utah
ROLAND W. BURRIS, Illinois
PAUL G. KIRK, JR., Massachusetts

                  Michael L. Alexander, Staff Director
                         Troy H. Cribb, Counsel
               Kristine V. Lam, Professional Staff Member
              Jason M. Yanussi, Professional Staff Member
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
   Robert L. Strayer, Minority Director for Homeland Security Affairs
                   Jennifer L. Tarr, Minority Counsel
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk
                            C O N T E N T S



                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................ 1, 16
    Senator Collins.............................................. 2, 17
    Senator Bennett..............................................    10
    Senator Voinovich............................................    13
    Senator Kirk.................................................    14
Prepared statements:
    Senator Lieberman............................................    29
    Senator Collins..............................................    31
    Senator Kirk.................................................    35

                               WITNESSES
                       Tuesday, November 10, 2009

Erroll G. Southers to be Assistant Secretary, U.S. Department of 
  Homeland Security..............................................     3
Daniel I. Gordon to be Administrator for Federal Procurement 
  Policy, Office of Management and Budget........................    18

                     Alphabetical List of Witnesses

Gordon, Daniel I.:
    Testimony....................................................    18
    Prepared statement...........................................   141
    Biographical and financial information.......................   143
    Letter from the Office of Government Ethics..................   152
    Responses to pre-hearing questions...........................   153
    Responses to post-hearing questions..........................   186
Southers, Erroll G.:
    Testimony....................................................     3
    Prepared statement...........................................    37
    Biographical and financial information.......................    39
    Letter from the Office of Government Ethics..................    66
    Responses to pre-hearing questions...........................    67
    Responses to post-hearing questions..........................    99
    Letters of support...........................................   108


         NOMINATIONS OF ERROLL G. SOUTHERS AND DANIEL I. GORDON

                              ----------                              


                       TUESDAY, NOVEMBER 10, 2009

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Kirk, Collins, Voinovich, and 
Bennett.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Chairman Lieberman. Good morning and welcome. The Committee 
today takes up the nominations of Erroll G. Southers to be the 
Assistant Secretary of Homeland Security in charge of the 
Transportation Security Administration (TSA) and Daniel Gordon 
to be Administrator of the Office of Federal Procurement Policy 
(OFPP) at the Office of Management and Budget (OMB). And we are 
going to begin with the nomination of Mr. Southers.
    Sir, you have been nominated to administer an agency which 
in very few years has grown to a large size and to be of great 
importance to the American people. It is probably one of the 
Federal agencies that has direct personal contact with more 
citizens of our country than any other--50,000 employees, a 
budget of $7 billion with a very important mission to protect 
the safety of passengers and cargo traveling by air, road, or 
rail.
    To this job, you bring nearly three decades of experience 
in public safety, homeland security, and intelligence carried 
out at all levels of government and, indeed, in academia. In 
your current position as the Assistant Chief of Homeland 
Security and Intelligence at Los Angeles World Airports (LAWA), 
you have had responsibility for the security of Los Angeles' 
four area airports.
    Previously, Mr. Southers taught homeland security and 
public policy at the University of Southern California and 
served as deputy director of the California Governor's Office 
of Homeland Security. He also worked as a Federal Bureau of 
Investigation (FBI) special agent and as a police officer in 
Santa Monica, California.
    If Mr. Southers is confirmed to be the TSA Administrator, 
he will be taking charge of an agency that I think has made 
enormous strides in the last 8 years to strengthen the security 
of the commercial aviation sector but that clearly must make 
more progress increasing the security not only of air travel 
but of other forms of transportation, particularly mass transit 
including railways.
    So I have several questions that I want to ask you in that 
regard, but for now, it is a pleasure to welcome you here. I 
appreciate that you are willing to take on this job.
    Now I would call on Senator Collins for an opening 
statement.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman. I join you in 
welcoming our nominee today for the important position of being 
the Assistant Secretary for the Transportation Security 
Administration.
    From the first day of its operation, the TSA was given a 
critical assignment under extraordinary circumstances. It was 
created to close the serious aviation security gaps that 
allowed terrorists to board airplanes, overpower the crews in 
flight, and carry out the deadly attacks against America on 
September 11, 2001. Eight years later, what was once seen as a 
new and fledgling agency has become an established security 
presence at our Nation's airports. Every year, the TSA screens 
more than 600 million airline passengers. The agency, through 
its screening and security efforts, has helped to restore 
America's confidence in air travel.
    While progress has been made, some security vulnerabilities 
persist. For example, there have been troubling reports of 
undercover inspectors being able to smuggle bomb components and 
weapons undetected through TSA's security checkpoints. To 
respond to these troubling findings, TSA must be aggressive in 
improving its screener training. It must also develop new and 
innovative technologies to aid in the detection of these 
threats.
    The Secure Flight program is a vital component in TSA's 
efforts to keep known and suspected terrorists from boarding 
commercial aircraft. When fully implemented next spring, this 
program will allow TSA to screen passenger names against the 
government's No-Fly list.
    As TSA manages the Secure Flight program, it must provide a 
better mechanism for passengers who believe they have been 
misidentified or put on the list in error. Our security 
measures must be designed not to unduly hamper legitimate 
travel while preventing access to aircraft by our enemies.
    Aviation is not the only sector of transportation that 
merits TSA's vigilant security efforts. The agency's mission 
extends to other modes of transportation as well, including 
mass transit, and that is for good reason. As the Chairman has 
noted in the past, we cannot focus all of our resources on 
terrorist threats to aviation alone as the threat does not stop 
there. We know that the terrorists will continue to devise new 
strategies to penetrate our defenses, and TSA cannot be caught 
flat-footed by focusing only on the techniques that terrorists 
employed in their last attack.
    I want to just close my remarks by mentioning two final 
points. One is, I am very impressed with the Visible Intermodal 
Protection and Response (VIPR) teams. These teams bring 
together Federal air marshals, TSA officers, and canine units 
to conduct security sweeps at airports, seaports, and transit 
stations. Two years ago, I saw them in action in demonstrations 
at Maine's airports, and I was very impressed how the resources 
are brought together.
    Finally, we cannot forget the importance of the role that 
the traveling public plays when it comes to identifying threats 
to mass transit. The See Something, Say Something public 
awareness campaign, which is underway I know in Los Angeles and 
New York, as well as the legal liability protections that the 
Chairman and I included in the 2007 homeland security law helps 
to prompt individuals to come forward and report suspicious 
activities.
    I look forward to exploring these issues with our witness 
today. The important mission of TSA will require a focused, 
talented, and determined leader. The security of our Nation's 
transportation system depends upon it.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks very much, Senator Collins.
    Mr. Southers has filed responses to a biographical and 
financial questionnaire, answered pre-hearing questions 
submitted by the Committee, and had his financial statements 
reviewed by the Office of Government Ethics. Without objection, 
this information will be made part of the hearing record with 
the exception of the financial data, which are on file and 
available for public inspection in the Committee's offices.
    Mr. Southers, I think you know our Committee rules require 
that all witnesses at nomination hearings give their testimony 
under oath, so I would ask you at this time to please stand and 
raise your right hand.
    Do you swear that the testimony that you are about to give 
to this committee will be the truth, the whole truth, and 
nothing but the truth, so help you, God?
    Mr. Southers. I do.
    Chairman Lieberman. Thank you very much. Please be seated.
    Mr. Southers, we would now welcome an opening statement, if 
you have one, and the introduction of any family or friends who 
are with you today.

 TESTIMONY OF ERROLL G. SOUTHERS\1\ TO BE ASSISTANT SECRETARY, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Southers. Good morning, Chairman Lieberman, Ranking 
Member Collins, and distinguished Members of the Committee. 
Before I begin, I would like to extend my most heartfelt 
sympathy and support for the victims of the shooting at Fort 
Hood and their families.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Southers appears in the Appendix 
on page 37.
---------------------------------------------------------------------------
    I am honored to appear before you today as President 
Obama's nominee to lead the Transportation Security 
Administration as Assistant Secretary. It is a privilege to be 
selected by the President and to receive the support of 
Secretary Napolitano. I look forward to the great challenge of 
continuing the exceptional work that the men and women of TSA 
do in protecting our homeland.
    With the Committee's indulgence, I would like to thank my 
parents, James and Thelma; my wife, Caryn; and our children, 
James and Maia for their love and support. I am so very pleased 
that Caryn and Maia are able to join me here today.
    I also must thank and acknowledge the outstanding officers 
and employees of the Los Angeles World Airports Police 
Department and my esteemed colleagues at the University of 
Southern California.
    I share Secretary Napolitano's vision that keeping our 
homeland safe from terrorism is a collective responsibility in 
which all Americans have a role to play. Protecting our 
transportation network requires the work of many hands: TSA; 
the unified resources of the Department of Homeland Security; 
other Federal agencies; private industry; State, local and 
tribal governments; our international partners; and most 
importantly, the traveling public. By engaging these partners, 
and with the oversight and guidance from Congress, we will more 
effectively ensure the free movement of the American people and 
the flow of commerce.
    If confirmed, I know the honor of leading TSA will come 
with great challenges and responsibilities. When Congress 
created TSA following the terrorist attacks of September 11, 
2001, it gave TSA the mission to provide for the security of 
all modes of transportation. While TSA has made great strides 
to fulfilling this responsibility, I fully understand that the 
work will never be complete. We are challenged by a dynamic 
threat and adaptive enemies who seek to harm Americans and our 
way of life.
    I believe that I am up to the challenge of leading TSA. TSA 
and its most valuable resource, its people, need leadership. I 
understand what type of leadership and support the front-line 
workforce needs to execute a security mission.
    For the past 30 years, I have dedicated myself to the 
challenge of counter-terrorism and public safety at local, 
State, and Federal levels. This has given me the important 
perspective to understand how partnerships are critical to 
success. The crucial need to effectively share information, be 
it threat information, intelligence, coordinated response 
planning, or best practices, is something I have lived with, 
practiced, and experienced. If confirmed, I will bring this 
same dedication and commitment with me to TSA.
    Since 2007, I have served as the Assistant Chief for 
Homeland Security and Intelligence for the Los Angeles World 
Airports Police Department. I am proud to wear the uniform of 
the airport police with the responsibility, in partnership with 
TSA and other agencies, to protect the people and goods that 
pass through one of the world's major airports, Los Angeles 
International Airport (LAX), as well as Van Nuys Airport, one 
of the busiest general aviation airports in the United States.
    LAX has the largest aviation law enforcement agency in the 
Nation with the largest complement of explosives detection 
canine teams of any U.S. airport. LAX is also an intermodal hub 
with an important nexus to surface transportation with its 
nearby light rail system and transit buses.
    LAX has served as an interdisciplinary laboratory in a 
real-world setting for advances in risk modeling and 
infrastructure protection. If confirmed, I will seek to further 
develop and deploy innovative security strategies and 
technologies to protect our transportation systems.
    Since 2006, I have served as Associate Director of the 
University of Southern California's Center for Risk and 
Economic Analysis of Terrorism Events (CREATE), a DHS Center of 
Excellence. My responsibilities include the development and 
enhancement of special programs to provide the intellectual 
underpinnings for the fight against terrorism.
    I also developed the executive program on counter-terrorism 
designed to challenge international counter-terrorism leaders 
and enhance their analysis, coordination, and response 
capabilities. My experience with the airport police and CREATE 
has afforded me the opportunity to collaborate with my 
international counterparts and other world experts in sharing 
best practices to combat terrorism. If confirmed, I will 
continue to draw on these relationships to benefit TSA's 
mission.
    I also had the honor to serve Governor Schwarzenegger as 
the Deputy Director of the Office of Homeland Security for 
California. I was responsible for counter-terrorism policy, the 
protection of California's critical infrastructure in a post-
September 11, 2001, environment and participated in the 
development of DHS's first National Infrastructure Protection 
Plan.
    If confirmed, I will serve as a key member of Secretary 
Napolitano's leadership team as she continues to forge a 
unified agency. Having served at both the operational level and 
as a stakeholder of the Department, I hope that I will bring a 
fresh perspective to fully integrating TSA operations as part 
of one DHS.
    Every day at LAX, I witnessed firsthand the great work of 
the transportation security officers, and I understand the 
challenges they face. I would be honored to serve as their 
assistant secretary. I will provide them with an effective 
voice within TSA while fulfilling the agency's critical 
security mission. A professional, effective workforce will 
further promote public confidence in TSA while enhancing our 
country's resilience.
    If confirmed, I hope to forge a close relationship with 
this Committee and with Congress. This is a partnership, and 
the threat the United States faces requires a unified effort.
    Mr. Chairman, Ranking Member Collins, Members of the 
Committee, thank you again for the opportunity to meet with you 
and your staff and appear before you today. I look forward to 
answering your questions.
    Chairman Lieberman. Thanks very much for that opening 
statement, Mr. Southers. I want to start my questioning with 
the standard three questions we ask of all nominees. First, is 
there anything you are aware of in your background that might 
present a conflict of interest with the duties of the office to 
which you have been nominated?
    Mr. Southers. No, sir.
    Chairman Lieberman. Second, do you know of anything 
personal or otherwise that would in any way prevent you from 
fully and honorably discharging the responsibilities of the 
office to which you have been nominated?
    Mr. Southers. No, Senator.
    Chairman Lieberman. And then finally, do you agree without 
reservation to respond to any reasonable summons to appear and 
testify before any duly constituted committee of Congress if 
you are confirmed?
    Mr. Southers. I do.
    Chairman Lieberman. Thank you very much. You are off to a 
good start. [Laughter.]
    Let me ask you a standard question for nominees, but it is, 
I think, a relevant one. In the general sense in the area of 
responsibility that you will take on, you have dealt with 
responsibilities like this. You have had interactions with TSA.
    As I have said, this agency has really come a long way in 
the 8 years, but obviously, it has enormous responsibilities. 
So my question is, what are your priorities going in, beyond 
preserving the progress made? In other words, what do you see 
as threats that you are concerned about that you would like to 
see us better defended against?
    Mr. Southers. As I mentioned in my opening statement, the 
threat environment is quite dynamic, especially as it relates 
to explosives and things of that nature. One of the things that 
would be a challenge initially is tomorrow's threat as it 
relates to some of the peroxide-based explosives. There is 
technology available, and I think going forward, I might look 
forward to an enhanced relationship with DHS's Science and 
Technology Directorate to better identify the technology that 
would be able to identify those types of threats.
    Chairman Lieberman. So tell us a little about that, just 
from the layman's perspective. What is the change that is 
occurring and what consequences does it have?
    Mr. Southers. The change that is occurring is that these 
explosives are able to be put in forms that are non-metallic. 
They are able to be concealed. The ingredients are readily 
available, and they are quite destructive. So the challenge 
then comes in being able to detect those types of explosives 
with the technology and/or training, of course, before they are 
introduced in the environment.
    Chairman Lieberman. Yes, I appreciate your mentioning the 
Science and Technology Directorate at the Department of 
Homeland Security. Senator Collins and I put that into the 
Department of Homeland Security when it was created. It is 
comparable to an agency at the Department of Defense, and it 
has been critically important to our national security to be 
able to use technology to stay ahead of the threat. And we 
finally have Dr. O'Toole confirmed as Under Secretary, so I am 
glad you are going to be working with her.
    In a somewhat similar regard, the bulk of homeland security 
dollars spent on improving security within the transportation 
sector have been spent on protective and defensive measures, 
obviously, most significantly, personnel but also cameras, 
security gates, and the like. But as you noted in response to 
one of the Committee's questions submitted to you prior to the 
hearing, ``Resiliency is a hallmark of effective security.'' 
And greater efforts should be made to enhance our capability 
for the continuity of operations to maintain public confidence 
in the safety and security of the transportation sector.
    So I wanted to ask you to develop that a little bit. What 
does resiliency in homeland security mean and what more do you 
think TSA should be doing to promote or require resiliency 
within the American transportation sector?
    Mr. Southers. I think there are two components to 
resiliency, a pre-incident component and a post-incident 
component. Probably the best examples of pre-incident 
resiliency that I have observed are in London and in Israel. 
London has dedicated itself to a prevent, detect, deter, and 
defend posture, most notably at the Royal United Services 
Institute, an institute in which I have lectured on this very 
subject. What they have done is engage the public, educated 
them, made them more aware of the threat, and really helped 
them form a very integral part of the security layer in London. 
As you know, Israel has been quite successful with the same in 
terms of engaging their public.
    So going forward, I think what we have to do is reach out 
to our public, make them more aware, better educated. There is 
an active campaign now at TSA called WHY, and we are explaining 
why the policies are in place, what they mean, and hoping that 
people will become part of that security layer.
    Of course, in a post-incident phase, we are looking at the 
ability to have continuity of operations. We are engaged in two 
pilot projects now from DHS at LAX focused on continuity of 
operations in the event we were to have a chemical and/or 
biological attack. So the ability to respond, to be resilient, 
and keep our way of life going if we were so victimized is 
important as well.
    Chairman Lieberman. It is somber but very important, I 
agree with you. As we discussed when you came in to see me, I 
have had a concern. Understandably, after September 11, 2001, 
we focused on the security of air travel. But there is also a 
lot of people in this country who travel on buses and 
particularly trains and subways. We know from events overseas 
that subways, trains, have been a target of terrorists. 
Usually, when we talk about this, people talk about practical 
problems of applying the same kind of security systems to, for 
instance, rail and subway transport as we do to aviation. But 
whenever I hear that, I worry that we are accepting a level of 
risk that we may not have to accept for people who are 
traveling by rail or subway.
    I wanted to ask you if you have any over-the-horizon 
thoughts about what is possible here in terms of raising our 
defenses to protect people who every day ride trains or subways 
around our country.
    Mr. Southers. Well, as we discussed, certainly looking at 
some of the attacks that have occurred in the last decade--
London, Mumbai, and other locations--rail is certainly a 
concern as well as buses. And we have to become better in terms 
of our ability to be risk driven. I think the assessments of 
these locations, these transmodal hubs throughout the United 
States, are going to be important in terms of determining what 
risk level we have.
    I think it might be important to emphasize the use of VIPR 
units in that kind of, if you will, enhancement of presence in 
terms of deterring operations from occurring there. It has been 
my experience that pre-operational planning is very dependent 
upon a lack of security. And when they see a lack of presence 
or a lack of effective technology, it is something going 
forward. I have, however, seen a full airport-type security 
measure in Shanghai before the Olympics last summer.
    Chairman Lieberman. For trains or subways?
    Mr. Southers. For trains.
    Chairman Lieberman. Yes.
    Mr. Southers. I do not know if that is an effective 
measure. It certainly would slow your throughput, but it is 
something that was explored and experimented with before the 
games. So I think it is important here to have a presence and 
deter the threat from actually looking at those locations to 
target.
    Chairman Lieberman. Well, I understand the practical 
problems. I hope you will explore some of those alternatives, 
including looking at the results from the Shanghai experience. 
And, of course, we can hope that technology will improve to an 
extent that we can do some kind of screening of passengers 
getting on trains and subways without compromising that mode of 
transportation in terms of its popularity or economic 
viability.
    My time is up. I thank you. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Southers, a great many people whose judgment I respect 
have spoken very well of you to me, including the new police 
chief in Portland, Maine, who is from Los Angeles originally 
and told me that he had a very high opinion of your work.
    Mr. Southers. Thank you.
    Senator Collins. There is one issue in your background that 
I want to explore for the record with you. In your responses to 
the Committee's pre-hearing questionnaire, you indicated that 
you had received a letter of censure from the FBI. It was many 
years ago, more than 20 years ago, but it involved your using 
your official position to resolve a personal concern.
    We have asked for a copy of that letter and have not yet 
received it. So let me ask you some questions about the letter.
    Were there any administrative sanctions imposed by this 
letter or in connection with this letter?
    Mr. Southers. No, there were not.
    Senator Collins. And was your decision to leave the FBI 
approximately 6 months later connected in any way to this 
incident?
    Mr. Southers. No, it was not.
    Senator Collins. Was it connected to the censure that you 
received?
    Mr. Southers. No, it was not.
    Senator Collins. You have taken responsibility for your 
actions. You have acknowledged your mistake in the personal 
conversation that we had in my office. It is important that the 
public have confidence that government officials will not 
misuse the authority that they have. There is also an issue 
about access to personal information, which is directly related 
to the incident at the FBI.
    If you are confirmed, you are going to have access to 
databases that have personal information on many individuals, 
such as through the Secure Flight program, and it is going to 
be important for the public to have confidence that you would 
not in any way misuse your access to the personal information 
in those databases.
    So let me first ask you, have you ever in the past misused 
your access to databases that the government maintains other 
than this one incident that led to this censure?
    Mr. Southers. No, Senator, I have not.
    Senator Collins. And do you commit today that you will 
respect the privacy and civil liberties concerns that people 
have with regard to the personal information in these 
databases?
    Mr. Southers. Yes, Senator, I do.
    Senator Collins. And do you commit that you will never use 
your access to those databases to satisfy a personal concern?
    Mr. Southers. Yes, Senator, I do.
    Senator Collins. Thank you.
    I would now like to go to a policy issue. The most frequent 
interaction that the traveling public has with TSA is through 
the checkpoint screenings at airports. And those of us who 
travel frequently know that there seems to be an inexplicable 
variation in the procedures at one airport versus another 
airport. These variations do not seem to be attributable to an 
increased threat level at one airport versus another airport. 
And a passenger behind me in line at the Boston airport just 2 
weeks ago put it very well, and he said, ``Why is it that when 
I am in Los Angeles, I put my shoes in a bin, but in Boston, it 
has to be directly on the screening belt?'' And there does not 
seem to be any uniformity in what is done, and he was 
expressing frustration about it because the screener actually 
chastised him--and I overheard this--for putting his shoes in 
the bin rather than directly on the belt going through the x-
ray machine.
    That seems like a very minor point, and in the scheme of 
things, it is. But it raises a larger issue. Should there not 
be consistency in how screening is done from airport to airport 
absent some threat level at a particular airport that would 
cause for a variation?
    Mr. Southers. Senator, you are absolutely correct. And you 
are speaking to the public confidence issue, which was raised 
earlier, that is eroded when, in fact, those policies and 
procedures are inconsistent. I think what is necessary here, 
obviously, first is a training issue nationwide that is 
consistent from airport to airport for those procedures that 
given the absence of risk or intelligence should be the same.
    Second is a management in place that is going to support 
staff when they make those decisions when anomalies occur or 
when prohibited items are discovered. And then third, 
leadership, of course, if confirmed, that I would take 
responsibility for, to see to it that those practices are in 
place, that training is in place, and that their compliance is 
carried out in a method that makes our efficiency of our system 
enhanced.
    Senator Collins. Thank you. I think it is a training issue. 
I also think it is a leadership problem and a communication 
problem because there do appear to be inconsistent procedures, 
and I think that is something that you could remedy.
    I want to move next to an issue which I hear a lot about 
from constituents, both pro and con, largely con. And that is 
an area that Secretary Chertoff identified as a significant 
unaddressed vulnerability, and that is the potential for 
terrorists to use general aviation aircraft to smuggle a weapon 
of mass destruction into the country or to use the airplane 
itself as a weapon. And as part of its effort to address this 
vulnerability in October 2008, TSA proposed a set of security 
regulations for general aviation aircraft, and these 
regulations would impose significant changes to the way that 
general aviation operates today.
    I have heard a lot of complaints, also, about those 
proposed regulations, that they are not practical for small 
airports where general aviation may be landing, that they are 
too burdensome, that they will lead to unnecessary expense.
    It is my understanding that these regulations have 
generated an astonishing 8,000 comments from stakeholders 
across the country. And a common theme is that TSA did not 
reach out sufficiently to the general aviation community to 
tell them, look, we have a problem here; how would you suggest 
that we solve it, and involve them more in a negotiated 
rulemaking rather than a top-down approach of just imposing 
regulations that may not be very practical.
    What is your response to that concern?
    Mr. Southers. Well, Senator, you are absolutely correct. 
And, certainly, stakeholder input is critical to establishing 
effective collaborations so we can address an item like this.
    As I mentioned earlier, I have three general aviation 
airports that I am currently responsible for. And what we have 
tried to do is, if you will, mitigate some of the risk 
presented by those aircraft there in a couple of ways. First, 
we have reached out to educate the stakeholders at those 
airports about the threat they face and made them more aware. 
We have also given them an opportunity to participate in a 24-
hour general aviation hotline for those anomalies, those 
persons that might be suspicious, those activities that might 
be suspicious, so that they can feed into our intelligence 
system, and then that information is provided to the fusion 
centers in the area. And most importantly, we have been able to 
move resources in the way of VIPR teams and canine teams to 
those airports on a random basis to present a different 
picture, a different view, if you will, to a would-be attacker 
so that our security posture is not seen as static or the same.
    So those have been the deterrents that we have been 
successful with in the Los Angeles area and that I would look 
forward to, if confirmed, bringing to the national scale.
    Senator Collins. Thank you. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you very much, Senator Collins.
    Senator Bennett, good morning.

              OPENING STATEMENT OF SENATOR BENNETT

    Senator Bennett. Good morning. Thank you very much and 
welcome, sir. I appreciate your willingness to serve and take 
on this responsibility.
    I want to discuss an area that has given rise to some 
concern in my home State, and this has to do with whole-body 
imaging now known as advanced imaging technology.
    Can you explain how this can improve our capability, 
particularly with respect to plastic explosives and ceramic 
knives?
    Mr. Southers. Senator, the whole-body imaging technology 
gives us the ability to identify metallic and non-metallic 
objects without personal contact with the passenger. Those 
items you mentioned are the ones that would be able to be 
located if we had that technology. We are seeing that kind of 
explosive capability around the world. The technology at 
present is optional to the passenger. What is important here is 
a very concerted effort on the part of TSA to balance the 
security enhancements with the civil liberties and privacy 
concerns of the passenger, and I think that is a delicate 
balance that would have to be maintained going forward.
    Senator Bennett. Yes, that was going to be my next 
question.
    Can you address it a little more in detail? Because a 
number of people are concerned about what they consider to be 
something of an intrusion when they are, in their view, 
exposed, electronically naked, if not physically naked, and 
there have been some serious concerns about that among some of 
my constituents.
    Can you get a little deeper into how you are protecting 
privacy?
    Mr. Southers. Well, Senator, the images that are presented 
on the technology are moving toward, if you will, almost a 
stick-figure-like image so that what can be identified are 
those objects that are attached to the body. The operator 
parameters, meaning the TSA operator parameters, are quite 
strict with regard to the operator not being located near the 
passenger. The medium in which the images are collected is not 
stored. They are having no contact with the individual at all. 
And most importantly, it is an optional screening methodology 
for the passenger. If they choose not to go through it, they 
would be subject to a pat-down search and wanding, if you will.
    Senator Bennett. Does that mean that every passenger that 
decides not to do it is going to be patted down? Because I go 
through the standard magnetometer now and I do not get patted 
down unless there is a little symbol of some kind on my 
boarding pass that says I have been identified by the computer 
as potential evil. [Laughter.]
    Mr. Southers. Unless there is some detection of some kind 
of threat that you might have, you would walk through the metal 
detector as you do now. If you went to secondary, you would be 
subject to a pat-down. But if there were no items detected by 
the metal detector, you would go on as you do now.
    Senator Bennett. Now, let us address the question of speed. 
For those of us who are very frequent fliers, the biggest 
challenge to getting to the airplane is getting through the TSA 
screening. And in my observation, the biggest impediment to 
getting through it quickly is the individual watching the 
screen as your luggage goes through. Some individuals are much 
more willing to challenge things than others, and they nit 
pick, if you will, every single item that goes by, and others 
almost seem not to notice the images as they go by. Both of 
those make me a little nervous.
    But I have found that the magnetometer is faster than the 
alternative methods. If we go to the kind of screening you are 
talking about here to deal with the plastic explosives and 
ceramic knives and so on, and that becomes the norm with the 
opt-out, the magnetometer, is that in fact going to slow things 
down everywhere and thereby cause people to shun it simply 
because they want the speed that would come with going through 
the magnetometer and thereby cut down on your effectiveness?
    Mr. Southers. Well, throughput is obviously important, but 
not at the expense of sacrificing security.
    Senator Bennett. Right.
    Mr. Southers. The technology is improving. As I mentioned 
earlier, we would hope to have a greater relationship with our 
Science and Technology Directorate. We have a transportation 
security integration facility at Regan Airport that tests these 
technologies.
    Senator, I think what is important here is to place the 
appropriate technology in the environment matched with the 
necessary training so that we can ensure security and ensure 
efficiency with throughput on our passengers and achieve a very 
good balance.
    Senator Bennett. Final question in that regard, I 
understand this is a very difficult kind of coordination that 
TSA has to do with the airlines. But the biggest challenge for 
throughput, to use your term, seems to be scheduling. 
Unfortunately, there are times when the flights to Washington 
are always taking off from Salt Lake, when everything is backed 
up because the schedules of the airlines have a number of 
planes going at that point. And then when I fly someplace other 
than Washington at a different time of day, there are TSA 
people standing around doing nothing because there are not any 
passengers lined up.
    Is there any effort being made to try to coordinate with 
the airlines at each airport to say these are our heavier 
periods where we need every station manned and these are 
periods when we need far less, and we can arrange the TSA 
schedule to match the airline schedule, and thereby save a 
little money and maximize the times when we need the personnel?
    Mr. Southers. Senator, that is a very valid concern, and we 
faced the same challenge when I first arrived at LAX about 3 
years ago.
    Senator Bennett. I would think LAX would be the poster 
child for that.
    Mr. Southers. I am happy to say in most instances we were. 
What we have done is our police department along with TSA and 
the airlines gathered the information. They gave us passenger 
load capacity 2 weeks ahead of time. TSA adjusted their 
staffing levels to those passenger loads. We then actually used 
that to dictate some of our randomized deployment of our 
security measures with those passenger loads. And so we were 
able to actually accomplish two very important things: TSA was 
able to match the staffing levels with the passengers, and we 
were able to look at some of the security threats presented by 
an increased number of people in a certain location at a 
certain time.
    Senator Bennett. I thank you for that, and I hope you share 
that expertise gained at LAX with a number of other terminals 
that I have gone through that are not that carefully 
coordinated.
    Thank you very much, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Bennett.
    Mr. Southers, just to clarify, how many airports are the 
whole-body imaging machines at now generally? I do not expect 
you to know exactly.
    Mr. Southers. Senator, I do not know that answer. Sorry.
    Chairman Lieberman. But as far as you know, is it the 
intention of TSA to have whole-body imaging machines at all the 
airports or at all the major airports?
    Mr. Southers. I honestly do not know.
    Chairman Lieberman. When you have a chance, get back to us.
                       RESPONSE FROM MR. SOUTHERS
        I am told that TSA is currently piloting Advanced Imaging 
        Technology (AIT) as the primary method of screening at six 
        airports: Albuquerque, Las Vegas, Miami, Salt Lake City, San 
        Francisco, and Tulsa. I also understand that TSA is currently 
        using IT at 16 airports in secondary screening.

    Chairman Lieberman. Do I have it right that the average 
person will go through the magnetometer first, and then if 
there is a problem, they are directed to the whole-body imaging 
machine or they can opt not to go there and then they will be 
patted down?
    Mr. Southers. They could actually go through whole-body 
imaging first.
    Chairman Lieberman. Oh, they could?
    Mr. Southers. Yes.
    Chairman Lieberman. By their choice or are we setting it up 
first in some airports?
    Mr. Southers. By their choice, yes, sir.
    Chairman Lieberman. Thank you. Senator Voinovich, welcome.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you. I am sorry that I was not 
here for your opening statement. I really enjoyed the visit we 
had in my office. And I probably of all the members of the 
Senate have an intimate relationship with TSA because I have a 
pacemaker, and I have been patted down by the best and the 
worst. [Laughter.]
    I have experienced whole-body imaging in Cleveland. I went 
through one here recently in Washington, and the thought was 
that people that have pacemakers and others would go through 
the whole-body imaging and eliminate the need to be patted 
down. But even when you go through the whole-body imaging, 
after that they still want to, once in a while, pat you down. I 
really do not believe that this system is going to go in 
throughout the country, and that is something you are going to 
have to decide. But as far as I am concerned, it is a nice 
option, and if it is there, I will use it.
    I think one of the things that has been brought up is the 
issue of how you manage the TSA workforce. And one of the 
things I think some of my colleagues are not aware of is that 
we do have a different system with TSA than we have with other 
Federal employees under title 5. When we stood up TSA, we gave 
them a separate section of the code, which gave the managers an 
opportunity to have more flexibility. For example, one of the 
reasons why we are able to retain part-time people in the TSA, 
which we need for those peak travel periods where you need more 
personnel, is that TSA has been able to offer them health 
insurance.
    One of the things that I am very concerned about, as we 
discussed in my office, is the effort to return TSA to title 5, 
United States Code, which I think would be a grave mistake. On 
the other hand, I understand that there is some consideration 
being given to having Secretary Napolitano grant some 
collective bargaining rights.
    Do you believe that collective bargaining rights should be 
extended to transportation security officers, and if so, how do 
you believe the labor relations system should be crafted? If 
TSA provides for collective bargaining, will TSA alter the 
Performance Accounting and Standard System, our PASS system, 
which means that we have 55,000 people today that are under 
performance evaluation, which I think is something that many 
people have encouraged us to be doing.
    Where do you stand right now in regard to this?
    Mr. Southers. Well, Senator, what you have noted is that 
over the years, TSA has made continued improvement, and that is 
something that is going to be a priority. In fact, what I would 
like to see is some day where this agency is the international 
model for transportation security.
    Where I would stand on that at this point is I would like 
to take, if I am confirmed, an opportunity to meet with the 
stakeholders, meet with the employees, a cross section of the 
organization to see how this is going to impact them. And we 
want to be able to protect employees, but our mission is, of 
course, security. And in my discussions with staff and the 
Secretary, I have made it clear that I would like to review 
this matter with the understanding that I would not compromise 
the security mission. There are certain costs that need to be 
considered. There are certain timelines that have to be 
considered if this were going to be engaged.
    So my position right now is one of wanting to review it, 
wanting to be part of the discussion, but I want to be clear 
that I would not endorse, recommend, or suggest to the 
Secretary anything that would compromise our mission or in any 
way would I suggest that we are going to bargain on security.
    Senator Voinovich. That is good. When TSA stood up, there 
were problems. I met with several of the managers of the 
airports and some of the screeners that were complaining. And I 
think one of the most satisfying things--it just happened 
recently--is I had an individual who was there just last--
yesterday, as a matter of fact. And about 3 years ago, all he 
did was moan and groan about how bad things were, how they 
needed a union, and so on and so forth. And in this particular 
instance, he had nothing to say except that things are going 
good.
    So there has been some real progress, I think, made there. 
It is not perfect. But, again, I would hate to give up the 
flexibilities that you have and return the TSA to title 5. If 
there is some compromise that can be worked out, I think that 
is good. I am glad to hear that you are not going to compromise 
the flexibility that we now have so that we can do the job of 
securing our people just because you get lobbied very hard by 
some folks out there that want to see TSA come under title 5.
    Mr. Southers. Thank you, Senator.
    Senator Collins [presiding]. Thank you.
    In Senator Lieberman's absence, I temporarily have the 
gavel. It feels great to have it once again. [Laughter.]
    And I am going to recognize our newest member, Senator 
Kirk, for his questions.

               OPENING STATEMENT OF SENATOR KIRK

    Senator Kirk. Thank you very much, Senator Collins. The 
gavel looks comfortable in your hands.
    Welcome, Mr. Southers. Thank you for your service. I know 
some of your relatives are here with you, and we welcome them 
as well.
    Mr. Southers. Thank you, sir.
    Senator Kirk. Massachusetts is my home. Boston, the capital 
city, is on a port. We have rail service, highways, and 
airports like so many others. So we obviously have a great 
interest in and gratitude for what your administration does, 
and we thank you for your service in that regard.
    Understanding fully that your mission is one of security, 
and that should be foremost, I wanted to ask you about the 
tensions that sometimes come into play with making sure that 
security is thorough and enforced, and I am referring to the 
No-Fly list. I know my predecessor Senator Edward Kennedy found 
his name on a No-Fly list and had considerable difficulty and 
challenges getting his name removed from that list. And I 
wondered if it was difficult for a U.S. Senator to have his 
name removed from a No-Fly list, what measures or what 
challenges do you see going ahead for people who perhaps may 
not be or should not be warranted as no-fly personnel or 
travelers, and how they can be removed from the list or better 
protected?
    Mr. Southers. Thank you, Senator. The implementation of the 
Secure Flight Program is going to mitigate a lot of those 
challenges that we have been facing in the past with regard to 
mismatches on the No-Fly list. The redress program known as the 
Traveler Redress Inquiry Program (TRIP) is one that is working 
its way forward. Passengers will be given an identification 
number and then, as you know, with Secure Flight, that vetting 
is actually occurring before a person gets to the airport.
    The goal of the program is to clear people before they even 
get to the airport. So we are reducing the number of near 
misses or mismatches on names. We are also reducing the need to 
have to go to the ticket counter when they arrive. So once this 
program is rolled out and it has been endorsed by the 
Government Accountability Office (GAO), I think it is going to 
greatly reduce those challenges and the problems that we have 
had in the past as it relates to No-Fly.
    Senator Kirk. And when will that be in effect, do you 
expect?
    Mr. Southers. I believe it is going to be rolled out in the 
next fiscal year.
    Senator Kirk. Another question I had was with respect to 
the process by which small businesses might be eligible to 
compete for some of the things that they produce. We have a lot 
of small technology companies in Massachusetts that are 
creative with respect to hand devices and other kinds of 
technology that I would expect would be helpful to advancing 
the mission of TSA. And I wondered if you could just describe 
for us what the process is so that small businesses would be 
able to compete and have their products assessed and evaluated 
so that they could perhaps be a part of helping you in your 
mission.
    Mr. Southers. Well, I know that this was part of the 
efficiency review in which the Secretary engaged earlier this 
year. The process is going to involve looking at the 
appropriate requests for proposals, making themselves available 
to that process, and then competing. We have been quite 
successful in the Los Angeles area in looking at businesses of 
all sizes to address some of the challenges that we have.
    We do encourage SAFETY Act certification by the Department 
so they have been recognized by DHS and so we understand that a 
certain level of vetting has occurred.
    But it is a process really of knowing when those 
opportunities exist and then engaging with the appropriate 
agency, meaning us, to get into the comparative pool for 
technologies that we might consider in the future.
    Senator Kirk. I would encourage you to consider symposia 
and other things that might showcase some of the creative and 
innovative technologies that are coming on stream for two 
purposes: First, to help you fulfill your mission, and second, 
to allow the small businesses, which are basically the fuel in 
a lot of our economic areas, to participate.
    Mr. Southers. Thank you, sir.
    Senator Kirk. Thank you. Thank you, Madam Chairman.
    Chairman Lieberman [presiding]. Thanks, Senator Kirk. Thank 
you, Madam Interim Chairman.
    Senator Collins. You can say it.
    Chairman Lieberman. For presiding while I had to be out.
    Senator Kirk. Who has the gavel now?
    Chairman Lieberman. I have retaken it. It was a peaceful 
transition. [Laughter.]
    Senator Collins. We believe in that in America.
    Chairman Lieberman. Mr. Southers, thank you very much. We 
do not have any more questions. We want to move on to the next 
nominee, but I appreciate all the background that you bring to 
this. And we are going to keep the record on your hearing open 
until the close of business on Thursday so we can give people 
another day to submit any additional questions they want 
because as soon as we come back, I hope we can move you through 
as soon as possible. But my thanks to you, and I look forward 
to working with you.
    Mr. Southers. Thank you, sir.
    Chairman Lieberman. Thank you. Let us now go to Daniel 
Gordon.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    We will now reconvene and move to the nomination of Daniel 
Gordon to be the Administrator of the Office of Federal 
Procurement Policy at the Office of Management and Budget.
    The purpose of the Office of Federal Procurement Policy is 
to bring economy, efficiency, and effectiveness to Federal 
procurement. And, of course, the job of the Administrator has 
grown more challenging by the year. The sheer size of Federal 
contracting puts an enormous amount of responsibility on this 
office. Just to give you a sense of it, in fiscal year 2008, 
the latest year for which we have complete data, the Federal 
Government spent $539 billion on contracts, an amount that is 
about two and a half times above what the government was 
spending at the beginning of the decade. And as the amount of 
contracting has grown, so has the complexity of what we 
purchase. Agencies, of course, still make traditional purchases 
like office supplies and furniture, but they also contract for 
an astounding array of goods and services, from information 
technology (IT) systems to pharmaceuticals to intelligence 
analysis.
    I am grateful that President Obama has turned to a real 
experienced expert in this field to serve as Administrator of 
OFFP. Since 1992, Mr. Gordon has been an attorney at the 
Government Accountability Office, so we feel a particular 
closeness to him, rising up through the ranks to be Deputy 
General Counsel. Since May, he has served as Acting General 
Counsel at GAO, and I think it is fair to say he is known 
throughout the procurement community as a very informed and 
experienced and thoughtful lawyer.
    Mr. Gordon will have no shortages of challenges at OFPP. He 
is going to need to push agencies to replenish their 
acquisition workforces, which simply have not kept pace with 
the growth in contracting. He is going to have to be sure that 
competition remains the cornerstone of contracting. He will 
have to improve our Federal data systems that provide 
transparency into contracting, which too often have inaccurate 
or untimely information. And he is going to have to help guide 
agencies in the important task of deciding when it is 
appropriate to turn to the private sector to perform work and 
when a function is so central to an agency's public mission 
that it should remain in the hands of public employees.
    If you are still willing to proceed with this hearing after 
that description of your responsibilities, Mr. Gordon, I 
welcome you, and I will have questions for you after your 
opening statement.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman.
    Seldom has a nominee for Administrator of the Office of 
Federal Procurement Policy come before the Committee at a more 
critical time. The Federal acquisition system is under 
tremendous stress. Between fiscal years 2000 and 2008, 
acquisition spending by the Federal Government expanded by 163 
percent from $205 billion to $539 billion.
    OFPP plays a central role in shaping the policies and 
practices Federal agencies use to acquire goods and services 
that they need to carry out their missions. In so doing, the 
OFPP has an obligation to ensure that the Federal acquisition 
system promotes the economy, efficiency, and effectiveness that 
provide best value to taxpayers.
    As a long-time advocate for stronger competition, 
accountability, and transparency in government contracting, I 
applaud the steps the Administration has taken to improve 
Federal contracting. Many of these initiatives originated from 
contracting reform legislation I co-authored with Senator 
Lieberman during the last Congress.
    But the fact remains that no matter how many laws we pass 
or how many guidance documents OMB issues, the effectiveness of 
our Federal acquisition system depends on a vital human 
component, the acquisition workforce.
    While contracting spending has risen dramatically, the 
number of acquisition personnel who help plan, award, and 
oversee these contracts has been stagnant. And with roughly 
half of the current acquisition workforce eligible to retire 
over the next decade, the difficulties of strengthening that 
workforce will only become more acute. A well-trained and well-
resourced workforce is critical to keeping pace with increased 
Federal spending on contracts and with the much more complex 
procurements of goods and services.
    The Administration has identified acquisition workforce 
development as a pillar for improving acquisition practices and 
contract performance. I am disappointed, however, by OFPP's 
latest proposal to supposedly strengthen the acquisition 
workforce. The 5-year plan released a few weeks ago falls far 
short of the critical changes that this Committee identified 
and mandated last year. The plan lacks adequate analysis or 
substance to serve as a meaningful blueprint to bolster this 
overburdened cadre of professionals and to foster the training 
and development of analytical skills necessary to protect the 
taxpayers' investment.
    We must also consider current staffing levels within the 
OFPP itself. In many ways, they mirror the problems that I have 
just described in the overall Federal acquisition workforce. 
OFPP has broad responsibilities and a staff of roughly a dozen 
appears to me to be simply inadequate. This lack of staffing 
may explain why OFPP has become increasingly reactive to 
procurement failures instead of working proactively to prevent 
them from occurring in the first place.
    Mr. Gordon brings with him more than 20 years of public and 
private experience in the Federal acquisition system ranging 
from litigating and adjudicating bid protests to teaching about 
the Federal procurement system. I look forward to hearing from 
him how he would address these many challenges if he is 
confirmed to be the next OFPP Administrator.
    Chairman Lieberman. Thanks very much, Senator Collins. Mr. 
Gordon has filed responses to a biographical and financial 
questionnaire, answered pre-hearing questions submitted by the 
Committee, and had his financial statements reviewed by the 
Office of Government Ethics.
    Without objection, this information will be made a part of 
the hearing record with the exception of the financial data, 
which are on file and available for public inspection in the 
Committee offices.
    Mr. Gordon, I think you know that our Committee rules 
require that all witnesses at nomination hearings give their 
testimony under oath, so I would ask you to stand please and 
raise your right hand at this time.
    Do you swear that the testimony you are about to give to 
this committee will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Mr. Gordon. I do.
    Chairman Lieberman. I thank you.
    Please be seated. We would welcome an opening statement or 
an introduction of any family or friends that you have with you 
this morning.

   TESTIMONY OF DANIEL I. GORDON\1\ TO BE ADMINISTRATOR FOR 
  FEDERAL PROCUREMENT POLICY, OFFICE OF MANAGEMENT AND BUDGET

    Mr. Gordon. Thank you, Mr. Chairman, Ranking Member 
Collins, and Members of the Committee.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Gordon appears in the Appendix on 
page 141.
---------------------------------------------------------------------------
    I am honored to appear before you today as President 
Obama's nominee to serve as the Administrator for Federal 
Procurement Policy. Because, as you noted, Mr. Chairman, I am a 
career Federal civil servant, it is especially humbling to be 
considered for a position that plays such an important role in 
helping our government achieve better results for the American 
people.
    I am very grateful to have my family and friends with me 
this morning, and with your indulgence, I would like to 
introduce my mother, Mae Mace, who I might add, Mr. Chairman, 
is a graduate of the Norwich Free Academy and Willimantic State 
Teachers College, as it was known then.
    Chairman Lieberman. I had a feeling that there was 
something special about your mom. Thank you, sir.
    [Applause.]
    That is actually a great school with a proud tradition.
    Mr. Gordon. My stepfather, Colonel Herman Mace, who I am 
proud to say is a World War II veteran.
    Chairman Lieberman. Thank you, sir. Thanks for your 
service.
    [Applause.]
    Mr. Gordon. My wonderful partner of 23 years, Paul Cadario; 
my brother and sister-in-law, Mike and Donna Gordon; my other 
sister-in-law, Harriet Gordon; and other family members. I am 
also delighted to be joined by colleagues from GAO, 
particularly the Office of General Counsel, as well as from the 
George Washington University Law School where I have been on 
the adjunct faculty.
    Chairman Lieberman. It is great to see everybody here in 
your support.
    Mr. Gordon. Thank you.
    Chairman Lieberman. And you began, I presume, not in terms 
of age but in terms of location.
    Mr. Gordon. Yes, sir. Thank you. I would not be here today 
without the loving support of my family and their guidance as 
well.
    The challenges that face us in the acquisition system 
require dedicated management attention if we are going to 
achieve the type of sustainable improvement that I believe the 
President envisioned in his March 4 memorandum on government 
contracting. Accordingly, if I am confirmed as Administrator, I 
would work with Congress and the agencies to address the 
following four priorities.
    First, as noted by the Ranking Member, increasing the size 
and improving the training of our acquisition workforce. Our 
procurement spending, as you have noted, has increased 
dramatically in the past decade, and the growth in the 
workforce has not kept pace. We need to focus our attention on 
developing the acquisition workforce and ensuring that its 
members get the training that they need.
    Second, we need to find ways to save money and reduce risk 
in our acquisitions. As you know, we are operating in a period 
of record deficits. A well-trained empowered acquisition 
workforce can help us structure our procurements in ways that 
save money and mitigate risk. Moreover, I believe that 
technology gives us the tools to make the procurement system 
much more transparent and that the visibility that transparency 
brings can discourage the improper use of high-risk contracting 
practices.
    Third, improving acquisition planning. We need to work to 
ensure that our program staff and our contracting staff are 
working together, that they have the capacity and the tools 
they need to effectively plan acquisitions because good 
planning is critical to successful acquisitions.
    Finally, strengthening contract management. As stewards of 
the taxpayers, we must make sure that those who contract with 
the government deliver what they promise in terms of price, 
schedule, and performance.
    There are no silver bullets. There are no quick solutions 
for any of these challenges. Each one will require hard work 
and coordinated actions on the part of multiple stakeholders. 
If confirmed, I welcome the opportunity to join the topflight 
team led by Director Peter Orszag, Deputy Director Rob Nabors, 
and Deputy Director for Management Jeff Zients.
    Let me close this brief statement by thanking you again for 
the honor and the opportunity to be here today. I would also 
like to thank your staff for the time that they spent with me 
in preparation for this hearing. If I am confirmed, I look 
forward to the opportunity to continue to work with this 
Committee and other Members of Congress.
    I would be pleased to answer questions that you may have.
    Chairman Lieberman. Thanks, Mr. Gordon. That was an 
excellent opening statement. And I want to note for the record 
that Jeff Zients, the aforementioned Deputy Director for 
Management at OMB, is right here. And that speaks to what I am 
sure will be a very important and good working relationship.
    I am going to start with the standard questions we ask of 
all nominees. First, is there anything you are aware of in your 
background that might present a conflict of interest with the 
duties of the office to which you have been nominated?
    Mr. Gordon. No, sir.
    Chairman Lieberman. Do you know of anything personal or 
otherwise that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Mr. Gordon. No, sir.
    Chairman Lieberman. Do you agree without reservation to 
respond to any reasonable summons to appear and testify before 
any duly constituted committee of Congress if you are 
confirmed?
    Mr. Gordon. Yes, sir.
    Chairman Lieberman. Thank you very much.
    I am going to ask a few of the questions that I touched on 
and then perhaps Senator Collins as well touched on in the 
opening statements. From the beginning of the Obama 
Administration, the President, as you noted, has put some 
emphasis on improved contract management. Back in February, 
Senator Collins and I participated in the procurement session 
of the President's Fiscal Responsibility Summit, and I have 
been pleased that OMB has followed up on some of the ideas that 
were discussed at that session by issuing two rounds of 
guidance on contracting, first in July and then again last 
month.
    This guidance does not rewrite Federal procurement rules, 
which is wise, in my opinion, given that we already have very 
detailed rules in the Federal acquisition regulation. But the 
guidance does lay out some best practices for agencies to 
increase competition, reduce the risk in contracting, and 
engage in better human resource planning so that the agencies 
find the right balance between their in-house workforces and 
outside contractors.
    So I wanted to ask you what role you think the 
Administrator of OFPP should play in making sure that the 
agencies follow the new guidance.
    Mr. Gordon. Mr. Chairman, OFPP and its Administrator can 
play an important role in ensuring the implementation of the 
guidance as well as, more generally, the implementation of the 
statutes and regulations about procurement.
    As I understand it, the OFPP Administrator works closely 
with chief acquisition officers through the Chief Acquisition 
Officers council and with senior procurement executives. The 
work with other agencies across the government is critical for 
the Administrator to hear what is happening, hear lessons 
learned, and share best practices so that we can implement the 
guidance and move forward.
    Chairman Lieberman. The July guidance from OMB lays out a 
couple of specific goals, which are, I say with appreciation, 
real, but I think they are also manageable, which is a 
reduction in 7 percent of contract spending and a 10 percent 
reduction in high-risk contracts; that is, non-competitive 
contracts or cost-reimbursement contracts over the next fiscal 
year.
    So as I said, I think these are achievable goals, but over 
the long run, the efficiencies that can be wrung out of 
contracting are going to vary from agency to agency. And I 
think, therefore, handing down numerical targets may not be the 
logical way and the next step to proceed to better management.
    So I wanted to ask you once we get by these initial 
reduction targets, what do you think OFPP can do? And in 
another sense, what leverage does the office have to sustain 
the momentum for better contract management and how will you 
manage, what kinds of benchmarks do you think might be 
established to measure the performance of each agency in this 
regard?
    Mr. Gordon. Mr. Chairman, one of the challenges in this 
area is more transparency and the need for more transparency. 
We need to know what is happening out there. In particular, for 
example, with the use of cost-reimbursement contracting where I 
know GAO just recently issued a report expressing concern that 
we do not have enough data on the number of cost-reimbursement 
contracts. When we have more transparency, as I said in my 
opening statement, that transparency can highlight the use of 
high-risk contracting methods, cost reimbursement, non-competed 
contracts, time and materials contracts. And in my view, that 
transparency itself can help.
    In addition, OFPP and its Administrator can, as I said, 
ensure that there is communication among the agencies and a 
sharing of lessons among the agencies to look for ways to 
reduce our risk and to get away from these higher risk 
contracting methods.
    Chairman Lieberman. That is a good answer, and I thank you. 
Let me ask you a very different kind of question about 
automated contract writing, which is a tool that I think can be 
very useful as we move to an electronic-based procurement 
system and away from a paper-based system. An automated system, 
I think, would help supervisors flag potentially troublesome 
contracts. And finally, an automated system, I think, would 
help us get better real-time transparency, which you focused 
on, of Federal spending.
    My understanding is that agencies vary quite a lot in their 
use now of automated writing systems. And I wanted to ask you 
if you have any plans to review this area and to see what 
efficiencies we might gain from better governmentwide contract-
writing systems.
    Mr. Gordon. If I am confirmed, Mr. Chairman, I would very 
much like to look into that. I would point out a couple of 
things. One is that uniformity, using, as you said, a standard 
contract writing software across the government, has certain 
advantages. Uniformity in our procurement system can make 
training easier and less expensive, can make it easier for 
people to transfer from agency to agency and take their skills 
with them.
    Obviously, there are situations when uniformity is not 
appropriate where you have agency-specific issues. There are 
some issues in the Department of Defense (DOD) obviously where 
they would have different regulations governing their 
acquisitions. So their system may need to be different. But it 
is certainly an area that I would want to explore to see if we 
can squeeze more efficiency out of our system.
    Chairman Lieberman. Good. A final question, which is also 
to raise something on your screen, we are holding this hearing 
as part of our traditional governmental affairs responsibility. 
We also now in recent years have had a homeland security 
responsibility. And we are focused this year, among other 
things, on cybersecurity as the rest of the government is.
    At a hearing we held in April on this subject, there was a 
very interesting point made, I thought, by one of the 
witnesses, that the Federal Government itself has tremendous 
buying power with regard to information technology. One 
estimate we heard was that in fiscal year 2010, we will spend 
approximately $76 billion on information technology matters.
    The challenge was raised as to the way in which we can use 
that spending strategically to improve Federal cybersecurity, 
and cybersecurity generally, by requiring more of the IT 
industry in the area of cybersecurity, particularly for such a 
large client base. I want to ask you if this makes sense to you 
and if you would take a look at it and hopefully act on that 
idea once you assume this office, if confirmed.
    Mr. Gordon. Mr. Chairman, I would welcome the opportunity 
to look into that. I see the issue as being part of strategic 
sourcing more broadly. The government, our Federal Government, 
as you know, is the largest buyer in the world.
    Chairman Lieberman. Right.
    Mr. Gordon. We need to be sure that we are taking advantage 
of our buying power and that we are using it to save money but 
also to leverage in an area such as cybersecurity, which I 
would welcome the opportunity to look into.
    Chairman Lieberman. Very good, thanks very much. Senator 
Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Gordon, I mentioned in my opening statement my concern 
about a recent OFPP document on the Acquisition Workforce 
Development Strategic Plan. It is dated October 27, 2009.
    Have you had a chance to read this document yet?
    Mr. Gordon. I have, Senator Collins, although, of course, I 
was not privy to the development of it.
    Senator Collins. Do you think that we could strengthen the 
acquisition workforce planning beyond what is in this document?
    Mr. Gordon. I heard your statements both today and in the 
hearing that I think the contracting subcommittee held last 
week or the week before, and I very much appreciated the point 
you made. I know that you are an advocate for strengthening our 
acquisition workforce, and if I am confirmed, I would welcome 
the opportunity to work with you and your staff to find ways to 
be sure that we do strengthen the acquisition workforce across 
the civilian agencies.
    Senator Collins. I think that is absolutely critical. As I 
have said, it does not matter how many executive orders are 
promulgated, how much guidance is issued, or how many laws we 
pass if we do not have a high quality and sufficiently sized 
workforce to implement it. So I look forward to working with 
you on that, which leads me to another workforce issue, which 
is OFPP's own workforce.
    OFPP in recent years has been largely reactive rather than 
proactive on procurement reforms, and I cannot help but wonder 
if that is attributable to the small size of the office. I am 
not looking to create some huge new bureaucracy, but I believe 
OFPP has only about a dozen full-time employees.
    Do you think that is adequate for the mission of the 
office?
    Mr. Gordon. It is an issue that, if I am confirmed, I would 
welcome the opportunity to look into. I will tell you that I am 
committed to ensuring that OFPP has adequate staff with the 
right skill set.
    Senator Collins. Let me turn to two specific policy 
concerns that I have. The Acquisition Advisory Council, which 
was created by Congress in 2003, recommended that multi-agency 
contracts and certain large dollar single agency indefinite 
delivery and indefinite quantity (IDIQ) contracts--referred to 
as enterprise-wide contracts--be centrally coordinated by OMB. 
And a lot of times, these enterprise contracts are huge. They 
are enormous. The Navy's SeaPort-e contract has an aggregate 
ceiling of $209 billion. The DHS Enterprise Acquisition Gateway 
for Leading Edge Solutions (EAGLE) contract has an aggregate 
ceiling of $45 billion. Both of these are multi-year contracts. 
And the advisory panel has also observed that the proliferation 
of contract vehicles dampens the government's ability to 
leverage its buying power.
    How would you address the problem of unnecessary 
duplication in similar contracts in various Federal agencies?
    Mr. Gordon. Senator Collins, I very much appreciate the 
report of the Acquisition Advisory Council and their 
recommendations. And the issue of duplication in these IDIQ 
contracts is a tough issue. I appreciate the logic, as the 
report pointed out, that sometimes a little bit of competition 
can be healthy.
    But I have heard considerable concern, both on the 
government side and on the private sector side, that the 
duplication has gone too far, that there are wasted efforts and 
wasted money. And potentially, it is acting as the opposite of 
strategic sourcing. It is essentially dividing up the Federal 
buying power instead of building it up.
    It is an issue that definitely merits attention. I know 
that OFPP has been looking at insisting that new IDIQ contracts 
come forward with a business case to justify them. It is 
definitely an issue that, if I am confirmed, I would want to 
look into to be sure that duplication is not wasteful of our 
very limited resources.
    Senator Collins. Thank you. I am pleased to hear you 
mention talking with the private sector. I think we should view 
the private sector as our partners in trying to procure 
services and goods that the Federal Government needs. Sometimes 
the relationship becomes too adversarial. On the other hand, 
there are rampant abuses that have occurred in some contracts 
because of insufficient oversight. So we need to reach out to 
the private sector to learn from them, but at the same time, 
make sure we have aggressive oversight.
    The relationship with the private sector brings up an issue 
that the Chairman and I have focused on many times. As you 
know, contractors are prohibited by law from performing 
inherently governmental functions. But defining what is an 
inherent government function is not always easy. Our Committee, 
however, has concluded that in the case of DHS, contractors 
were performing many functions, such as writing specifications 
for contracts, that clearly should be done in-house.
    What would you do to ensure that the proper balance is 
struck and that agencies are maintaining their ability to 
perform core functions?
    Mr. Gordon. I very much appreciate the concerns that you 
raise, Senator Collins, on both sides. That is to say, I very 
much agree that contractors perform important functions. We 
need to work with the contractors that are helping the 
government carry out its tasks. But as you said, and I also 
very much agree with this, we need to be careful that we have 
not become overly reliant on contractors.
    As both the President and the Director of OMB have said, 
there is real concern that we have gone overboard in 
contracting out. We need to revisit the contracting out that we 
have done to be sure not only that inherently governmental 
functions are performed by Federal employees; that should be a 
given. But in addition, there are other functions which are 
critical to the agency's performance of its mission that need 
to be performed by Federal employees. The agency must not lose 
control of its operations by outsourcing too much.
    I understand that OMB is committed to developing clearer 
guidance on inherently governmental functions, and if I am 
confirmed, I would welcome the opportunity to be part of that 
process.
    Senator Collins. Thank you. My time has expired, so I am 
going to submit my further questions for the record.
    Let me just in closing say that you also need to pay 
attention to the use of blanket purchase agreements (BPA). GAO 
has a new report that indicates that in over half of the sample 
BPAs that were reviewed, there was no evidence that agencies 
sought discounts when establishing these agreements. This is an 
issue that definitely OFPP needs to take a look at.
    Mr. Gordon. I agree.
    Senator Collins. Thank you.
    Chairman Lieberman. Thanks, Senator Collins. Senator 
Voinovich.
    Senator Voinovich. Thank you. I would like to build on a 
couple of questions that Senator Collins mentioned. First of 
all, have you had a chance to evaluate OFPP's resources?
    Are there enough people in your shop to get the job done? 
Does OFPP have the quality and the numbers to get it done?
    Mr. Gordon. I have been very impressed by the people in 
OFPP that I have worked with over the years, including more 
recently. I have been impressed by the quality of the work that 
they do, but I have not formed an opinion yet about the 
appropriate number.
    Senator Voinovich. If you find that the right people are 
not there, are you going to tell Mr. Zients that you need more 
people?
    Mr. Gordon. The good thing about working for Jeff Zients is 
I think he would view me as part of the team and we would be 
communicating very frankly and freely.
    Senator Voinovich. The second question deals with the issue 
of having the in-house people to have the expertise to work 
with the contractors that you hire. I have found from my career 
in the management side that too often agencies farm out 
acquisition functions and do not have the people in-house to 
make sure that the people that they have farmed the work out to 
are doing the job that they are supposed to be doing. And I 
would be very interested in having an appraisal, assuming you 
are confirmed, of agencies that you feel lack the capacity in-
house to get the job done. I think that is real important, and 
I am sure there is going to be some standards developed on this 
issue. But I would like to know after maybe 6 months which 
agencies you think need to bring some folks back in-house or 
develop the capacity in-house to get the job done.
    The other issue is we had a hearing in August, and we were 
dismayed to learn that the chief acquisition officer of one of 
the Federal Government's top purchasers was not aware he could 
access direct hire authority for acquisition personnel.
    If confirmed, what are you going to do to make sure that 
agencies know what flexibilities they have to get the people 
they need to get the job done? Also, I would be interested in 
knowing whether or not you think that the salary levels are 
adequate to compete for acquisition personnel because there is 
a big need out there in this area.
    Mr. Gordon. There is. Senator, thank you for the questions. 
If I could say first of all more broadly before addressing some 
of the specific points you raised, I think we are in a very 
good situation in that we have a broad consensus from this 
Committee, from Congress generally, and across the agencies, 
and obviously at OMB, that we must increase the size of the 
acquisition workforce. We must increase their training.
    Senator Voinovich. Now, do you have the flexibilities and 
the salary schedule to go out and get those individuals?
    Mr. Gordon. We absolutely need to be sure that we have that 
capacity. On the salary, I do not feel like I know enough about 
the facts, but I have noted it down. I do want to look into 
that. I am encouraged by the fact that the Office of Personnel 
Management under the new Administrator, John Berry, is working 
to streamline the Federal hiring practices. We need to be able 
to hire people. We need to hire qualified people. Fortunately, 
the job market today actually facilitates hiring in the Federal 
Government, but we then need to train them. We need to reward 
them so that they feel appreciated in our acquisition 
workforce--very important things that I would view as high 
priorities if I am confirmed as Administrator.
    Senator Voinovich. It has been mentioned that you are going 
to have a lot of retirements from the acquisition workforce.
    What policies are in place for hiring back annuitants to 
train the new people coming on board?
    Mr. Gordon. I understand, Senator, that there are some 
flexibilities there, but I should note that there has actually 
been growth in the acquisition workforce over the past year and 
a half, 2 years, and that is somewhat encouraging. But we do 
need to look to flexibilities such as rehired annuitants, if 
that is appropriate, and to be sure that agencies, as you say, 
know what flexibilities they have in hiring.
    Senator Voinovich. The National Defense Authorization Act 
of 2008 required OFPP to develop a sustainable funding model to 
support the hiring, training, and retention of acquisition 
personnel. The recently released OFPP guidance on acquisition 
workforce development strategic planning did not provide a 
specific discussion of the funding mechanism.
    Would you please share your views on how efforts to grow 
the civilian acquisition workforce should be funded and would 
you support a centralized fund similar to the Defense 
Acquisition Workforce Development Fund in order to get the job 
done? In other words, what we are doing, we are giving the 
budgets of each of the departments and acquisition is included 
under the personnel line item probably, and then they have to 
decide how much goes to the acquisition workforce.
    If we do have this great need, do you think we should 
continue that practice or should we set up a separate fund as 
has been the case with the Defense Acquisition Workforce 
Development Fund?
    Mr. Gordon. I appreciate the appeal of having a fund as we 
have on the DOD side. Senator, to tell you frankly, I just do 
not feel like I know enough of the different aspects of the 
issue to have an opinion yet, but I can commit to you that I 
would want to look into it. We need to be sure that we have a 
way to bring on board the acquisition employees that we need.
    Senator Voinovich. Good. I just think so often we ask 
people to do a job like the one we are going to be asking you 
to do, and then we do not have the infrastructure in place so 
that you can achieve that job. And I would hope that you would 
be as candid as you can be with Mr. Zients and also with this 
Committee in terms of whether or not you feel that you are in 
position to do the job we are going to ask you to do.
    Mr. Gordon. Thank you.
    Chairman Lieberman. Thanks, Senator Voinovich. Senator 
Kirk.
    Senator Kirk. Thank you. Thank you, Mr. Chairman.
    Welcome, Mr. Gordon. Welcome to your family. To your 
father, we celebrate all veterans, but your service to the 
country at this particular time is poignant, and we thank you 
for that.
    First of all, I want to identify myself with Senator 
Collins' comments about the clarification between those 
contracts that are clearly governmental and those that might be 
available for commercial bidding and competition. It is clear 
from the President's memorandum of March 4 that there is a need 
for greater clarity and clearing the blurs in the lines and so 
forth.
    Can you be more specific about what you would do, if you 
are confirmed for your new position, to make sure that those 
lines are clear so people in the commercial sector can know 
whether and when they can compete?
    Mr. Gordon. Yes, Senator. My understanding is that OMB is 
already working with the Executive Branch agencies to get those 
agencies to identify on a pilot basis functions where there is 
a risk that they are, in fact, overly reliant on contractors. I 
do not know the details, obviously, because I am not in the 
position. But if I am confirmed, I very much would want to look 
into that.
    As one of your colleagues mentioned earlier, acquisition is 
a particularly sensitive area. If we have contractors that are 
playing a role in acquisition, we need to be sure at the 
minimum that there are not conflicts of interest that would 
make it inappropriate for a contractor to be working in that 
area. But as I think is implicit in your question, OMB needs to 
give Executive Branch agencies guidance and the private sector 
guidance about what work should not be contracted out but 
rather needs to be performed by Federal employees. And if I am 
confirmed, I would welcome the opportunity to be part of that.
    Senator Kirk. Thank you. One of the tangential tensions, if 
you will, with contracting out inherently Federal functions is 
the risk that personal information of Americans and contractors 
might be mishandled. And I think most folks would rely on and 
hope to have assurances that security of their personal 
information would not be compromised. And I wondered whether 
you know whether OMB will provide additional guidance on this 
issue to agencies that handle personal information such as I am 
describing.
    Mr. Gordon. Senator, the issue of personally identifiable 
information and the need to protect it is a very high priority. 
I would need to look into the specifics of any role that OFPP 
might have in that, but I commit to you that, if I am 
confirmed, I will be happy to look into that issue.
    Senator Kirk. Thank you very much. One other important area 
about no-bid contracts is that they prevent many well qualified 
small businesses from competing on a level playing field. One 
of the leaders of small business in my State in Massachusetts 
said that, ``The record has been pretty dismal,'' when it comes 
to the ability to compete for Federal contracts.
    Would you agree with that characterization? And I wondered 
what efforts might be made to perhaps make small business more 
accessible to an ability to compete for some of these 
contracts?
    Mr. Gordon. Opening up opportunities, Senator, for small 
businesses to compete for Federal contracts is a bedrock 
principle of our Federal procurement system, and obviously, it 
is enshrined in law through the Small Business Act and the 
regulations implementing it. One of OFPP's functions is to work 
with the Small Business Administration and through that 
cooperation remove barriers to entry so that small businesses 
can participate in the competition for contracts.
    I would note that there has actually been quite a bit of 
success. I appreciate that a small business that does not get a 
contract may feel frustrated, but, in fact, there is, I 
understand, a Federal target of roughly 23 percent and we are 
close to that target. And I think under the Recovery Act, 
contracts are actually above that target. So progress is made, 
but as we often say at GAO, more work remains to be done.
    Senator Kirk. It is an area where I think a small business 
is very much the touchstone of our economy and particularly in 
certain areas of our country, so I would encourage you to keep 
pushing that forward.
    Mr. Gordon. Yes, sir, I will do that.
    Senator Kirk. Thank you very much. Mr. Chairman, that is 
all I have for this morning.
    Chairman Lieberman. Thank you very much, Senator Kirk. I 
appreciate those questions. More work needs to be done. You are 
right.
    Thank you. You have been very responsive to the Committee's 
questions. I hope I do not jinx your nomination by saying it 
is, in my experience on the Committee, one of the most broadly 
supported, uncontroversial nominations, so I hope it continues 
to be that way.
    Mr. Gordon. You are very kind, Mr. Chairman. Thank you.
    Chairman Lieberman. You have earned it.
    We are going to keep the record of this hearing open until 
the close of business on Thursday for additional questions or 
statements, and then we will try to move your nomination 
through the Committee and the floor as soon as possible to get 
you to work. I thank you for being here. I thank your family. I 
cannot repeat too many times how exciting it is to have a 
graduate of the Norwich Free Academy here in the room. 
[Laughter.]
    Mr. Gordon. You made her day, sir.
    Chairman Lieberman. She made mine. With that, the hearing 
is adjourned.
    [Whereupon, at 11:40 a.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 56143.001

[GRAPHIC] [TIFF OMITTED] 56143.002

[GRAPHIC] [TIFF OMITTED] 56143.003

[GRAPHIC] [TIFF OMITTED] 56143.004

[GRAPHIC] [TIFF OMITTED] 56143.005

[GRAPHIC] [TIFF OMITTED] 56143.006

[GRAPHIC] [TIFF OMITTED] 56143.007

[GRAPHIC] [TIFF OMITTED] 56143.008

       Statement of Erroll G. Southers to be Assistant Secretary,


                  U.S. Department of Homeland Security


                           November 10, 2009

    Good morning Chairman Lieberman, Ranking Member Collins, 
and distinguished Members of the Committee. Before I begin, I 
would like to extend my most heartfelt sympathy and support for 
the victims of the shooting at Ft. Hood and their families.
    I am honored to appear before you today as President 
Obama's nominee to lead the Transportation Security 
Administration as Assistant Secretary. It is a privilege to be 
selected by the President and to receive the support of 
Secretary Napolitano. I look forward to the great challenge of 
continuing the exceptional work that the men and women of TSA 
do in protecting our homeland.
    With the Committee's indulgence, I would like to thank my 
parents, James and Thelma, my wife, Caryn, and our children, 
James and Maia, for their love and support. I am so very 
pleased that Caryn and Maia are able to join me today. I also 
must thank and acknowledge the outstanding officers and 
employees of the Los Angeles World Airports Police Department 
and my esteemed colleagues at the University of Southern 
California.
    I share Secretary Napolitano's vision that keeping our 
homeland safe from terrorism is a collective responsibility in 
which all Americans have a role to play. Protecting our 
transportation network requires the work of many hands--TSA, 
the unified resources of the Department of Homeland Security, 
other federal agencies, private industry, state, local, and 
tribal governments, our international partners, and most 
importantly, the traveling public. By engaging these partners, 
and with the oversight and guidance from Congress, we will more 
effectively ensure the free movement of the American people and 
the flow of commerce.
    If confirmed, I know that the honor of leading TSA will 
come with great challenges and responsibilities. When Congress 
created TSA following the terrorist attacks of 9/11, you gave 
TSA the mission to provide for the security of all modes of 
transportation. While TSA has made great strides in fulfilling 
this responsibility, I fully understand that the work will 
never be complete. We are challenged by a dynamic threat and 
adaptive enemies who seek to harm Americans and our way of 
life.
    I believe that I am up to the challenge of leading TSA. 
TSA, and its most valuable resource, its people, need 
leadership. I understand what type of leadership and support 
the front-line workforce needs to execute a security mission. 
For the past thirty years I have dedicated myself to the 
mission of counterterrorism and public safety at the federal, 
state, and local levels. This has given me the important 
perspective to understand how partnerships are critical to 
success. The crucial need to effectively share information, be 
it threat information, intelligence, coordinated response 
planning, or best practices, is something that I have lived 
with, practiced, and experienced. If confirmed, I will bring 
this same dedication and commitment with me to TSA.
    Since 2007 I have served as the Assistant Chief for 
Homeland Security and Intelligence for the Los Angeles World 
Airports Police Department. I am proud to wear the uniform of 
the airport police with the responsibility, in partnership with 
TSA and other agencies, to protect the people and goods that 
pass through one of the world's major airports, Los Angeles 
International Airport, as well as Van Nuys Airport, one of the 
busiest general aviation airports in the United States. LAX has 
the largest aviation law enforcement agency in the United 
States, with the largest complement of explosives detection 
canine teams of any U.S. airport. LAX is also an intermodal hub 
with an important nexus to surface transportation with its 
nearby light rail system and transit buses.
    LAX has served as an interdisciplinary laboratory in a real 
world setting for advances in risk modeling and infrastructure 
protection. If confirmed, I will seek to further develop and 
deploy innovative security strategies and technologies to 
protect our transportation systems.
    Since 2006, I have served as Associate Director of the 
University of Southern California's Center for Risk and 
Economic Analysis of Terrorism Events (CREATE), a DHS Center 
for Excellence. My responsibilities include the development and 
enhancement of special programs to provide the intellectual 
underpinnings for the fight against terrorism. At CREATE, I 
developed an Executive Program in Counterterrorism, designed to 
challenge international counterterrorism leaders and enhance 
their analysis, coordination, and response capabilities.
    My experience with LAWA and CREATE has afforded me the 
opportunity to collaborate with my international counterparts 
and other world experts in sharing best practices to combat 
terrorism. If confirmed, I will continue to draw on these 
relationships to benefit TSA's mission.
    I also had the honor to serve Governor Schwarzenegger as 
the Deputy Director of the Office of Homeland Security for 
California. I was responsible for counterterrorism policy, the 
protection of California's critical infrastructure in the post-
September 11, 2001 environment and participated in the 
development of DHS's first National Infrastructure Protection 
Plan.
    If confirmed, I will serve as a key member of Secretary 
Napolitano's leadership team as she continues to forge a 
unified agency. Having served at both the operational level and 
as a stakeholder of the Department, I hope that I will bring a 
fresh perspective to fully integrating TSA operations as part 
of ``One DHS.''
    Every day at LAX I witness firsthand the great work of the 
Transportation Security Officers and I understand the 
challenges they face. I would be honored to serve as their 
Assistant Secretary. I will provide them with an effective 
voice within TSA while fulfilling the agency's critical 
security mission. A professional, effective workforce will 
further promote public confidence in TSA while enhancing our 
country's resilience.
    If confirmed, I hope to forge a close relationship with 
this Committee and with Congress. This is a partnership, and 
the threat the United States faces requires a unified effort.
    Mr. Chairman, Ranking Member Collins, and Members of the 
Committee, thank you again for the opportunity to meet with you 
and your staff, and appear before you today. I look forward to 
answering your questions.
[GRAPHIC] [TIFF OMITTED] 56143.010

[GRAPHIC] [TIFF OMITTED] 56143.011

[GRAPHIC] [TIFF OMITTED] 56143.012

[GRAPHIC] [TIFF OMITTED] 56143.013

[GRAPHIC] [TIFF OMITTED] 56143.014

[GRAPHIC] [TIFF OMITTED] 56143.015

[GRAPHIC] [TIFF OMITTED] 56143.016

[GRAPHIC] [TIFF OMITTED] 56143.017

[GRAPHIC] [TIFF OMITTED] 56143.018

[GRAPHIC] [TIFF OMITTED] 56143.019

[GRAPHIC] [TIFF OMITTED] 56143.020

[GRAPHIC] [TIFF OMITTED] 56143.021

[GRAPHIC] [TIFF OMITTED] 56143.022

[GRAPHIC] [TIFF OMITTED] 56143.023

[GRAPHIC] [TIFF OMITTED] 56143.024

[GRAPHIC] [TIFF OMITTED] 56143.025

[GRAPHIC] [TIFF OMITTED] 56143.026

[GRAPHIC] [TIFF OMITTED] 56143.027

[GRAPHIC] [TIFF OMITTED] 56143.028

[GRAPHIC] [TIFF OMITTED] 56143.029

[GRAPHIC] [TIFF OMITTED] 56143.030

[GRAPHIC] [TIFF OMITTED] 56143.031

[GRAPHIC] [TIFF OMITTED] 56143.032

[GRAPHIC] [TIFF OMITTED] 56143.033

[GRAPHIC] [TIFF OMITTED] 56143.034

[GRAPHIC] [TIFF OMITTED] 56143.035

[GRAPHIC] [TIFF OMITTED] 56143.036

[GRAPHIC] [TIFF OMITTED] 56143.037

[GRAPHIC] [TIFF OMITTED] 56143.038

[GRAPHIC] [TIFF OMITTED] 56143.039

[GRAPHIC] [TIFF OMITTED] 56143.040

[GRAPHIC] [TIFF OMITTED] 56143.041

[GRAPHIC] [TIFF OMITTED] 56143.042

[GRAPHIC] [TIFF OMITTED] 56143.043

[GRAPHIC] [TIFF OMITTED] 56143.044

[GRAPHIC] [TIFF OMITTED] 56143.045

[GRAPHIC] [TIFF OMITTED] 56143.046

[GRAPHIC] [TIFF OMITTED] 56143.047

[GRAPHIC] [TIFF OMITTED] 56143.048

[GRAPHIC] [TIFF OMITTED] 56143.049

[GRAPHIC] [TIFF OMITTED] 56143.050

[GRAPHIC] [TIFF OMITTED] 56143.051

[GRAPHIC] [TIFF OMITTED] 56143.052

[GRAPHIC] [TIFF OMITTED] 56143.053

[GRAPHIC] [TIFF OMITTED] 56143.054

[GRAPHIC] [TIFF OMITTED] 56143.055

[GRAPHIC] [TIFF OMITTED] 56143.056

[GRAPHIC] [TIFF OMITTED] 56143.057

[GRAPHIC] [TIFF OMITTED] 56143.058

[GRAPHIC] [TIFF OMITTED] 56143.059

[GRAPHIC] [TIFF OMITTED] 56143.060

[GRAPHIC] [TIFF OMITTED] 56143.061

[GRAPHIC] [TIFF OMITTED] 56143.062

[GRAPHIC] [TIFF OMITTED] 56143.063

[GRAPHIC] [TIFF OMITTED] 56143.064

[GRAPHIC] [TIFF OMITTED] 56143.065

[GRAPHIC] [TIFF OMITTED] 56143.066

[GRAPHIC] [TIFF OMITTED] 56143.067

[GRAPHIC] [TIFF OMITTED] 56143.068

[GRAPHIC] [TIFF OMITTED] 56143.069

[GRAPHIC] [TIFF OMITTED] 56143.070

[GRAPHIC] [TIFF OMITTED] 56143.071

[GRAPHIC] [TIFF OMITTED] 56143.072

[GRAPHIC] [TIFF OMITTED] 56143.073

[GRAPHIC] [TIFF OMITTED] 56143.074

[GRAPHIC] [TIFF OMITTED] 56143.075

[GRAPHIC] [TIFF OMITTED] 56143.076

[GRAPHIC] [TIFF OMITTED] 56143.077

[GRAPHIC] [TIFF OMITTED] 56143.078

[GRAPHIC] [TIFF OMITTED] 56143.079

[GRAPHIC] [TIFF OMITTED] 56143.080

[GRAPHIC] [TIFF OMITTED] 56143.081

[GRAPHIC] [TIFF OMITTED] 56143.082

[GRAPHIC] [TIFF OMITTED] 56143.083

[GRAPHIC] [TIFF OMITTED] 56143.084

[GRAPHIC] [TIFF OMITTED] 56143.085

[GRAPHIC] [TIFF OMITTED] 56143.086

[GRAPHIC] [TIFF OMITTED] 56143.087

[GRAPHIC] [TIFF OMITTED] 56143.088

[GRAPHIC] [TIFF OMITTED] 56143.089

[GRAPHIC] [TIFF OMITTED] 56143.090

[GRAPHIC] [TIFF OMITTED] 56143.091

[GRAPHIC] [TIFF OMITTED] 56143.092

[GRAPHIC] [TIFF OMITTED] 56143.093

[GRAPHIC] [TIFF OMITTED] 56143.094

[GRAPHIC] [TIFF OMITTED] 56143.095

[GRAPHIC] [TIFF OMITTED] 56143.096

[GRAPHIC] [TIFF OMITTED] 56143.097

[GRAPHIC] [TIFF OMITTED] 56143.098

[GRAPHIC] [TIFF OMITTED] 56143.099

[GRAPHIC] [TIFF OMITTED] 56143.100

[GRAPHIC] [TIFF OMITTED] 56143.101

[GRAPHIC] [TIFF OMITTED] 56143.102

[GRAPHIC] [TIFF OMITTED] 56143.103

[GRAPHIC] [TIFF OMITTED] 56143.104

[GRAPHIC] [TIFF OMITTED] 56143.105

[GRAPHIC] [TIFF OMITTED] 56143.106

[GRAPHIC] [TIFF OMITTED] 56143.107

[GRAPHIC] [TIFF OMITTED] 56143.108

[GRAPHIC] [TIFF OMITTED] 56143.109

[GRAPHIC] [TIFF OMITTED] 56143.110

[GRAPHIC] [TIFF OMITTED] 56143.111

[GRAPHIC] [TIFF OMITTED] 56143.112

[GRAPHIC] [TIFF OMITTED] 56143.113

[GRAPHIC] [TIFF OMITTED] 56143.114

[GRAPHIC] [TIFF OMITTED] 56143.115

[GRAPHIC] [TIFF OMITTED] 56143.116

[GRAPHIC] [TIFF OMITTED] 56143.117

[GRAPHIC] [TIFF OMITTED] 56143.118

[GRAPHIC] [TIFF OMITTED] 56143.119

[GRAPHIC] [TIFF OMITTED] 56143.120

[GRAPHIC] [TIFF OMITTED] 56143.121

[GRAPHIC] [TIFF OMITTED] 56143.122

[GRAPHIC] [TIFF OMITTED] 56143.123

[GRAPHIC] [TIFF OMITTED] 56143.124

[GRAPHIC] [TIFF OMITTED] 56143.125

[GRAPHIC] [TIFF OMITTED] 56143.126

[GRAPHIC] [TIFF OMITTED] 56143.127

[GRAPHIC] [TIFF OMITTED] 56143.128

[GRAPHIC] [TIFF OMITTED] 56143.129

[GRAPHIC] [TIFF OMITTED] 56143.130

[GRAPHIC] [TIFF OMITTED] 56143.131

[GRAPHIC] [TIFF OMITTED] 56143.132

[GRAPHIC] [TIFF OMITTED] 56143.133

[GRAPHIC] [TIFF OMITTED] 56143.134

[GRAPHIC] [TIFF OMITTED] 56143.135

[GRAPHIC] [TIFF OMITTED] 56143.136

[GRAPHIC] [TIFF OMITTED] 56143.137

[GRAPHIC] [TIFF OMITTED] 56143.138

[GRAPHIC] [TIFF OMITTED] 56143.139

[GRAPHIC] [TIFF OMITTED] 56143.140

[GRAPHIC] [TIFF OMITTED] 56143.141

[GRAPHIC] [TIFF OMITTED] 56143.142

[GRAPHIC] [TIFF OMITTED] 56143.143

[GRAPHIC] [TIFF OMITTED] 56143.144

[GRAPHIC] [TIFF OMITTED] 56143.145

[GRAPHIC] [TIFF OMITTED] 56143.146

[GRAPHIC] [TIFF OMITTED] 56143.147

[GRAPHIC] [TIFF OMITTED] 56143.148

[GRAPHIC] [TIFF OMITTED] 56143.149

[GRAPHIC] [TIFF OMITTED] 56143.150

[GRAPHIC] [TIFF OMITTED] 56143.151

[GRAPHIC] [TIFF OMITTED] 56143.152

[GRAPHIC] [TIFF OMITTED] 56143.153

[GRAPHIC] [TIFF OMITTED] 56143.154

[GRAPHIC] [TIFF OMITTED] 56143.155

[GRAPHIC] [TIFF OMITTED] 56143.156

[GRAPHIC] [TIFF OMITTED] 56143.157

[GRAPHIC] [TIFF OMITTED] 56143.158

[GRAPHIC] [TIFF OMITTED] 56143.159

[GRAPHIC] [TIFF OMITTED] 56143.160

[GRAPHIC] [TIFF OMITTED] 56143.161

[GRAPHIC] [TIFF OMITTED] 56143.162

[GRAPHIC] [TIFF OMITTED] 56143.163

[GRAPHIC] [TIFF OMITTED] 56143.164

[GRAPHIC] [TIFF OMITTED] 56143.165

                                 <all>

</pre></body></html>
